No. 20-5784
In the Supreme Court of the United States
CEDRIC JEFFRIES,
Petitioner
v.
STATE OF OHIO,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF OHIO
PROOF OF SERVICE

MICHAEL C. O’MALLEY
Cuyahoga County Prosecutor
KATHERINE E. MULLIN*
Assistant Prosecuting Attorney
*Counsel of Record
1200 Ontario Street, 8th Floor
Cleveland, Ohio 44113
216-698-6454
kemullin@prosecutor.cuyahogacounty.us
Counsel for Respondent State of Ohio

1

PROOF OF SERVICE

I, Katherine E. Mullin, hereby certify that one original of the foregoing Brief
in Opposition in Cedric Jeffries v. Ohio, was sent via regular U.S. mail to the U.S.
Supreme Court, and a copy was sent to the following party via email, with consent
of the party, this 25th day of November, 2020: Jeffrey M. Gamso, Assistant Public
Defender, jgamso@cuyahogacounty.us, 310 Lakeside Ave., Suite 200, Cleveland,
OH 44113, Counsel for Petitioner Cedric Jeffries.

/s/ Katherine E. Mullin
KATHERINE E. MULLIN*
Assistant Prosecuting Attorney
*Counsel of Record
1200 Ontario Street, 8th Floor
Cleveland, Ohio 44113
216-698-6454
kemullin@prosecutor.cuyahogacounty.us
Counsel for Respondent State of Ohio

2

